         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report

The Department's Fleet Vehicle
Sustainability Initiatives at Selected
Locations




DOE/IG-0896                      October 2013
                                 Department of Energy
                                    Washington, DC 20585
                                        October 24, 2013


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department's Fleet Vehicle
                         Sustainability Initiatives at Selected Locations"


BACKGROUND

In Fiscal Year (FY) 2012, the Department of Energy's fleet consisted of 14,457 vehicles operated
at an annual cost of approximately $131 million. Nearly 72 percent of the vehicles were leased
through the General Services Administration (GSA), with the remaining Department-owned and
commercially leased. The vehicles, which are located throughout the complex, are managed by
Federal and contractor site officials but are used primarily by the Department's nearly 100,000
contract employees.

In October 2009, the President issued Executive Order 13514, Federal Leadership in
Environmental, Energy, and Economic Performance, which called for a reduction in the use of
fossil fuels by using alternative fuel vehicles (AFVs), optimizing the number of vehicles in the
fleet, and reducing petroleum consumption by a minimum of 2 percent annually through the end
of FY 2020 relative to a FY 2005 baseline. The Energy Policy Act of 2005 requires that agencies
operate AFVs exclusively on alternative fuels unless the Department waives the requirement.

In October 2010, the Department established the Sustainability Performance Office to promote
its sustainability activities and requirements. That Office, the Office of Management, and
Department Secretarial Officers, are responsible for the oversight of the Department's fleet
sustainability initiatives. Those initiatives include reducing the Department's use of petroleum
and optimizing the size of its fleet.

Because of the cost of operating the fleet and the Department's prominent role in encouraging
U.S. efforts to reduce petroleum consumption, we initiated this audit to determine whether the
three Department sites included in the review had effectively and efficiently implemented
vehicle fleet sustainability initiatives.

RESULTS OF AUDIT

While Los Alamos National Laboratory (LANL) and the Bonneville Power Administration
(Bonneville) had taken steps designed to improve economy and reduce emissions, they had not
always managed their substantial vehicle fleets in a cost-effective or efficient manner, nor did
                                                  2


they take all prudent steps to advance the use of alternative fuels. Specifically, these
organizations:

      •   Leased 854 flex-fuel vehicles, (522 at LANL and 332 at Bonneville) that were
          routinely fueled with regular gasoline instead of alternative fuels such as E-85.
          Ironically, the Department paid a premium of about $700,000 to acquire these flex-
          fuel vehicles rather than purchasing conventionally-fueled vehicles.

      •   Retained about 25 percent of their fleets (269 and 564 vehicles and other mobile
          equipment, at LANL and Bonneville respectively) even though they did not meet
          minimum utilization standards. Despite retaining underutilized vehicles, LANL
          actually increased its inventory of other motorized equipment (small motorized
          equipment not suitable for use on public roadways).

The issues we identified occurred primarily because Departmental policies and procedures had
not incorporated changes necessary to achieve optimal fleet inventory with regard to the type and
number of vehicles. Further, the policies did not reflect the need for procedures to locate AFVs
near alternative fueling stations. We noted that the Department set goals in accordance with the
Executive Orders for overall fleet reductions, petroleum reductions and alternative fuel use
increases; however, flow down of these goals to local sites, in terms of specific targets or
directions, was not entirely effective. We also learned that, although required, the Department
had never conducted a utilization survey to determine optimal fleet inventory, and that agency
policies did not incorporate methodologies for determining the most efficient fleet size. While
we recognize that a stringent "one size fits all" policy may not be practical in a diverse agency,
the Department's decentralized approach permitted sites to manage individual fleets without
sufficient focus on vehicle inventory levels and the commitment to alternative fuels.

The fleet management program at the Savannah River Site was also included in our audit scope.
In contrast to the other two sites we visited, Savannah River's fleet vehicles program appeared to
be effectively managed. Documentation provided by Savannah River revealed that its fleet of
AFVs was appropriately sized and was supported by local alternative fueling stations.

During the course of our audit, we noted that the Department had taken some action to address
the issues outlined in this report. While these were positive steps, additional effort is needed to
address the problems we observed. To that end, the report includes several recommendations
designed to enhance fleet management at LANL and Bonneville.

MANAGEMENT REACTION AND AUDITOR COMMENTS

The Office of Management and the National Nuclear Security Administration (NNSA) provided
comments on the draft of this report. The Office of Management generally agreed with our
findings and recommendations. NNSA initially disagreed with our findings and
recommendations, citing several concerns with the report; however, after follow-up discussions
with NNSA management to clarify our respective positions, NNSA generally agreed with the
report's findings and recommendations. We consider management's planned corrective actions
to be fully responsive to our findings and recommendations.
                                           3


Attachment

cc: Deputy Secretary
    Acting Under Secretary for Science and Energy
    Acting Under Secretary for Nuclear Security
    Acting Under Secretary for Management and Performance
    Chief of Staff
    Director, Office of Management
    Director, Sustainability Performance Office
REPORT ON THE DEPARTMENT'S FLEET VEHICLE SUSTAINABILITY
INITIATIVES AT SELECTED LOCATIONS



TABLE OF
CONTENTS

Fleet Vehicle Sustainability Initiatives

Details of Finding ..................................................................................................................1

Recommendations and Management Reaction ......................................................................7

Auditor Comments .................................................................................................................8


Appendices

1. Objective, Scope and Methodology ..................................................................................10

2. Prior Reports .....................................................................................................................12

3. Management Comments ...................................................................................................13
THE DEPARTMENT'S FLEET VEHICLE SUSTAINABILITY INITITATIVES
AT SELECTED LOCATIONS

Fleet Vehicle Sustainability Initiatives

While the Department of Energy's (Department) fleet managers had made an effort to implement
Executive Order 13514, Federal Leadership in Environmental, Energy and Economic
Performance, pertaining to fleet vehicles and petroleum reduction, and Executive Order 13589,
Promoting Efficient Spending, they had not always updated the vehicle fleet in a cost-effective or
efficient manner at two of the three sites we reviewed. The fleets at Los Alamos National
Laboratory (LANL) and Bonneville Power Administration (Bonneville) included flex-fuel
vehicles, a type of alternative fuel vehicle (AFV) that could use either gasoline or ethanol fuel.
However, these sites had very limited ethanol fuel availability and used gasoline in the majority
of flex-fuel vehicles. This practice was inconsistent with the intent of Executive Order 13514 to
decrease the consumption of petroleum. Further, both sites failed to optimize the size of their
fleets and many of the vehicles that we examined were underutilized. Although they attempted
to reduce the number of vehicles in the fleet, there was no defined optimal inventory plan or
criteria in place to implement formal, specific vehicle reductions. Fleet managers at a third site,
the Savannah River Site, properly managed their fleet by acquiring an appropriate number of
AFVs based on alternative fuel availability at the site. Savannah River Site also had an active
effort to reduce the size of its fleet.

                                    Alternative Fuel Vehicles

LANL and Bonneville used regular gasoline in a significant portion of their flex-fuel equipped
vehicles, a practice that provided little or no environmental or economic benefit. In fact, LANL
submitted and the Department granted waivers for 482 of its 486 flex-fuel vehicles in 2011,
citing a lack of alternative fuel availability. Bonneville also was granted waivers for 124 of its
311 flex-fuel vehicles in 2011. According to the waivers, the sites had very limited ethanol fuel
availability and, as such, used gasoline in the majority of the flex-fuel vehicles. The Energy
Policy Act of 2005 (EPAct) requires that dual-fueled vehicles use only alternative fuel unless a
waiver is acquired from the Department's Federal Energy Management Program (FEMP). A
waiver may be granted for AFVs located more than 5 miles or a 15-minute drive from an ethanol
refueling station. Although technically permitted, the waivers provided in these cases appeared
to frustrate the Department's stated goal of reducing the use of fossil fuels and associated
emissions.

Although access to ethanol fuel remained an issue, LANL and Bonneville continued to increase
the number of flex-fuel vehicles in their fleets. As of September 2012, LANL's overall fleet had
decreased by 9 vehicles, while the number of flex-fuel vehicles had grown to 587. According to
LANL officials, LANL used a tanker truck to bring fuel to LANL to fill approximately 65
security vehicles with ethanol fuel. The tanker truck operated approximately 3 hours per day, 5
days per week, and the weekly labor costs to operate the truck were $1,200. Additionally, LANL
spent $3,760 on maintenance and repair of the truck in calendar year 2012. The total cost of
maintaining and operating the truck, excluding fuel costs, was approximately $66,000 for
calendar year 2012.




Page 1                                                                         Details of Finding
In an effort to reduce the use of gasoline in AFVs, the Department moved to address the high
number of waivers in effect at LANL and Bonneville. In September 2012, FEMP denied the
requests for waivers for 419 flex-fuel vehicles submitted by LANL in 2012. FEMP officials
stated that the waivers were denied because the ethanol fuel truck was considered a source of
ethanol fuel and, therefore, the flex-fuel vehicles had access to alternative fuel and did not need
waivers. However, LANL fleet managers stated that the fuel truck was intended to fuel a pilot
group of 65 vehicles and was insufficient to fuel the entire fleet of AFVs.

Similarly, as of December 2012, Bonneville's fleet of flex-fuel vehicles had grown to 375 and
Bonneville submitted waiver requests for 347 of those vehicles. FEMP disapproved 172 of those
requests because FEMP found that an alternative fuel station was located within 5 miles of the
vehicle locations cited by Bonneville, although Bonneville stated that many of the vehicles
operated in remote field locations with no access to ethanol fuel. Department fleet managers
indicated that they would appeal FEMP's decision to disapprove the waivers. However, FEMP
officials told us that they never received an appeal and, as of May 2013, FEMP continued to
deny the waivers and noted that FEMP had no intention of reversing its decision. Consequently,
AFVs at LANL and Bonneville continued to operate on gasoline, despite not having the required
waiver.

Although we identified modest increases in the use of alternative fuels at both LANL and
Bonneville, the increases were not commensurate with the growth of the AFV fleet at both
organizations. Bonneville increased alternative fuel consumption between 2009 through 2012;
however, the alternative fuel use accounted for only 3 percent of all fuel consumed, whereas 41
percent of Bonneville's vehicle inventory were AFVs. Similarly, LANL increased its alternative
fuel use between 2009 and 2012; however, the alternative fuel accounted for only 4 percent of all
fuel used and the fleet consisted of approximately 40 percent AFVs.

In contrast, Savannah River Site maintained an appropriately sized fleet of AFVs that could be
supported by the availability of alternative fuel. Savannah River Site maintained alternative fuel
stations on site and the site Management and Operating contractor, Savannah River Nuclear
Solutions, was able to effectively fuel its 370 AFVs. Its fleet of 1,002 vehicles consisted of
approximately 37 percent AFVs and alternative fuel consumption represented approximately 27
percent of the fleet's total fuel consumption. None of the users of the site's AFVs submitted
waivers requesting exemption from using alternative fuels.

                                        Fleet Optimization

Neither LANL nor Bonneville effectively optimized fleet size to meet sustainability initiatives.
As an aid in determining optimal fleet inventory, the General Services Administration (GSA)
issued GSA Bulletin FMR B-30, Motor Vehicle Management, in 2011. This bulletin directs
agencies to specifically identify vehicles that fall below pre-established minimum utilization
criteria and to dispose of or reassign those vehicles. The Department's Personal Property
Management Guide establishes utilization standards for motor vehicles, including sedans, light
trucks, sports utility vehicles, medium trucks and heavy trucks. However, the guide allows for
local objectives to be established when the utilization of individual motor vehicles cannot be
measured or evaluated strictly on the basis of miles operated or against any Department-wide

Page 2                                                                           Details of Finding
mileage standards. The objectives should be based on past performance, future requirements,
geographic considerations and special operating requirements. The GSA Bulletin addressed
issues we observed in our report on The Department's Utilization of Fleet Vehicles (DOE/IG-
0728, May 2006). During that audit we found that about 28 percent of the vehicles in the audit
sample, which did not include vehicles at LANL or Bonneville, did not meet local use standards
for Fiscal Years (FY) 2004 and 2005. Additionally, we found that utilization rates may have
declined at certain sites because these facilities were permitted to acquire and use other
motorized equipment without making a corresponding reduction in fleet vehicles. Despite those
findings and increased scrutiny across the Federal government, our current findings suggest that
problems with optimizing the size of vehicle fleets persist.

Many of the vehicles at LANL and Bonneville were underutilized. Although Bonneville had a
process for identifying and addressing underutilized vehicles, this process was not followed and
fleet vehicle utilization had not historically been monitored, as required. Bonneville conducted
an initial utilization assessment in 2012 and calculated that it had a utilization rate of
approximately 75 percent for its 2,230 vehicles and mobile equipment based on local, informal
utilization standards established during the course of that assessment. Consequently, 564
vehicles and other mobile equipment, approximately 25 percent, were retained despite not
meeting the locally developed utilization standards. Subsequent to this assessment, Bonneville
reduced the vehicle and mobile equipment inventory by 87, to 2,143 as of April 2013.
Bonneville fleet managers stated that they planned to conduct future assessments and would use
the data to establish formal local utilization standards.

LANL had also established local utilization objectives for its fleet. To be considered fully
utilized at LANL, a vehicle must travel an average of 205 miles per month or make 6 trips per
working day. According to documents provided by LANL officials, a utilization rate of less than
93 percent, meaning that less than 93 percent of fleet vehicles meet these utilization standards, is
considered "unsatisfactory." During FYs 2009 through 2011, LANL's utilization rate was
between 75 and 77 percent. For example, in FY 2011, LANL had a utilization rate of 76 percent
meaning that 269 of 1,115 vehicles, or approximately 24 percent, were retained even though
those vehicles did not meet the local utilization objectives. Subsequent to the issuance of a draft
of this report, National Nuclear Security Administration (NNSA) fleet managers stated that they
are implementing right-sizing initiatives across the complex and are specifically requiring fleet
managers to justify a need for every leased vehicle.

Furthermore, users submitted written justification for retaining only 35 of the 269 underutilized
vehicles at LANL. However, some of the justifications were very vague and did not sufficiently
explain why the user organization needed to retain the vehicles instead of downsizing their fleet.
One justification for retaining two underutilized vehicles stated, "because of the amount of
employees and locations of employees, they would like to keep both vehicles. The plan is to
switch them every 6 months to make sure we put enough mileage on both vehicles." When
addressing underutilized vehicles, we noted the emphasis was often on increasing utilization as
opposed to downsizing the fleet and, therefore, reducing costs. In regard to eight other
underutilized vehicles, the justification stated, "all managers have devised a plan to increase the
utilization of their vehicles and do not plan to turn any in at this time."




Page 3                                                                          Details of Finding
Additionally, in spite of the significant number of underutilized vehicles, we found a substantial
increase in other motorized equipment at LANL, including motorized carts, trucks and vans that
are not licensed for use on public roads or "officially" counted in the fleet vehicle inventory.
Since 2007, the inventory of other motorized equipment at LANL had increased by 59 percent,
from 93 items in 2007 to 148 items in 2012. The acquisition cost was significant, ranging from
$10,000 to $22,285 for various items. In addition, LANL was responsible for maintenance and
fuel costs for other motorized equipment, unlike fleet vehicles leased from GSA that include
these costs in the leasing rates. LANL fleet managers did not track the utilization or fuel use of
these other motorized equipment.

In contrast to Bonneville and LANL, the Savannah River Site proactively managed its fleet
inventory, adjusting its inventory to ensure it maintained what it considered to be optimal fleet
size. The Savannah River Site had established a fleet utilization goal of 94 percent and had
implemented fleet reduction plans, as appropriate, to ensure effective utilization rates.
Consequently, Savannah River Nuclear Solutions had a utilization rate of approximately 90
percent for FY 2012, with a monthly utilization rate of at least 94 percent for the last 4 months of
the year.

Management of Fleet Sustainability Initiatives

These issues occurred, in part, because the Department had not effectively managed its fleet
sustainability initiatives. Specifically, policies and procedures had not been updated to reflect
changes necessary to achieve optimal fleet inventory with regard to the type and number of
vehicles and availability of alternative fuels. In addition, rather than flow down sustainability
goals to various sites, the Department chose to use a decentralized approach to fleet
management, with each Program Office responsible for setting fleet management goals.

                               Department Policies and Procedures

The Department 's fleet management policies and procedures were not entirely effective. In
accordance with the Executive Order 13514, FEMP and GSA issued Government-wide guidance
and an implementing handbook that provided specific methodologies and procedures which
agency fleet managers could use to select and implement optimal petroleum reduction strategies.
However, this guidance had not been incorporated into Department policy. Although
Department managers were aware of the guidance, the fleet administrator and fleet managers that
we interviewed stated that they rarely used it. Further, GSA Bulletin FMR B-30 requires that
agencies conduct a utilization survey as part of a vehicle allocation methodology to determine
optimal fleet inventory and to develop and incorporate strategies for achieving optimal
inventories into the Department's internal policies. The utilization survey was to include the
evaluation of fleet vehicles against objective utilization criteria and consider additional
subjective information, such as the tasks accomplished by each vehicle and whether it is critical
to its owner's mission. According to the Department's Fleet Administrator, the Department had
never conducted a utilization survey and agency fleet policies had not been updated.

Furthermore, the Department's recently developed 2012 Fleet Management Plan contained only a
general blueprint regarding the location and support for AFVs. Specifically, the plan stated that
Department's Fleet Management would coordinate closely with FEMP and GSA to ensure that

Page 4                                                                          Details of Finding
AFVs would have proximity and access to alternative fueling stations. The plan further stated
that the Department would "arrange its acquisition process in a manner that verifies that AFVs
have access to alternative fuel relative to its reported garage location." However, no specific
guidance or direction had been provided on how this would be accomplished. In fact, a
Department manager stated that flex-fuel vehicles were located at LANL in order to attract
commercial vendors to provide alternative fuel. Despite that goal, LANL fleet and sustainability
managers stated that they had attempted to work with area commercial vendors, yet there had
been no interest in providing access to alternative fuel. Although the 2012 Fleet Management
Plan suggests that AFVs be located near alternative fuel stations, little effort had been made at
Department Headquarters to analyze and alter AFV locations based on alternative fuel
availability.

Similarly, the Department's FY 2012 Fleet Management Plan also defined fleet reduction goals
for each year through FY 2014. However, no additional guidance was provided on specific
methodologies or targets that fleet managers could use to conduct a utilization survey and reduce
the fleet to achieve optimal inventory size. Instead, the Plan cited ambiguous methodologies for
achieving the planned reductions. For example, the Plan stated that the first methodology to
achieve the reductions would be to increase the use of low-speed vehicles because they do not
"officially" count towards the Department's fleet vehicle inventory size. LANL classified low-
speed vehicles as other motorized equipment and did not include them in the Laboratory's fleet
vehicle inventory. While the use of other motor equipment may contribute to "reducing" the
fleet inventory on paper, there was no way to determine whether this methodology was effective
in reducing fleet costs or petroleum consumption.

                                 Decentralized Fleet Management

In addition, the Department managed its fleet in a decentralized manner, with each Program
Office responsible for managing the funding for vehicles. Although the Department set broad
goals for overall fleet reductions, petroleum reductions and alternative fuel increases, these goals
had not always flowed down to the sites in terms of specific targets or directions to site fleet
managers to implement actions to achieve the goals. Department Order 436.1, Departmental
Sustainability, May 2011, assigns responsibility to Department Under Secretaries and Program
Secretarial Offices for the planning and management of goal attainment within their respective
organizations; however, the Office of Management is responsible for Department-wide property
management policy and guidance promulgation. The Office of Management is the primary point
of contact for GSA's Office of Motor Vehicle Management. Although the Headquarters Fleet
Administrator within the Office of Management was responsible for developing and issuing
Departmental fleet policies and procedures, some site fleet managers expressed frustration with
the lack of guidance provided by the Fleet Administrator on how to structure and update the
fleet. Several offices within Headquarters created fleet reduction plans; however, the Fleet
Administrator stated that he had not seen the plans. Consequently, efforts to downsize the fleet
depended on the cooperation of the vehicle end users at individual sites.

Notably, the Office of Environmental Management created a detailed fleet reduction plan that
included methods for evaluating utilization data and provided the plan to site fleet managers.
The Savannah River Site then created a detailed implementation plan that resulted in improved
utilization rates. In contrast, LANL fleet managers stated that they had no reduction mandates

Page 5                                                                          Details of Finding
and LANL did not have a detailed fleet reduction plan. LANL did undertake an effort to reduce
its fleet size and achieve cost savings, but the effort was met with resistance. For example, one
user organization advised LANL fleet management that it would not be participating in the
vehicle reduction effort because its business required it to maintain a "fair" amount of vehicles
due to the locations of staff and customers. However, the user organization did not provide any
further analysis or explanation of what was considered a "fair" amount of vehicles.

Fleet managers expressed frustration that, without Department policy from Headquarters, they
had no "teeth" to enforce the vehicle reductions. They also noted that because the user
organizations controlled the funding, it was very difficult to get the organizations to turn in
vehicles. In spite of some resistance by user organizations, LANL fleet managers noted that for
the FY 2013 vehicle ordering cycle, LANL successfully reduced the fleet by 20 vehicles and
downsized 34 sports utility vehicles to sedans by requiring user organizations to justify the
retention and specific type of each vehicle.

Opportunities for Improvement

As part of an overall strategy to reduce greenhouse gas emissions, Executive Order 13514 states
that agencies should reduce the use of fossil fuels by using AFVs to decrease the total
consumption of petroleum products. By acquiring AFVs but continuing to fuel these vehicles
with petroleum at LANL and Bonneville, the Department is not maximizing the reduction of
greenhouse gas emissions. As such, there may be missed opportunities for petroleum reductions
and alternative fuel consumptions by locating AFVs in areas with no alternative fuel available,
instead of areas where the alternative fuel would be consumed.

Also, without a defined fleet management plan in place to help sites achieve optimal fleet size
and without requirements that flowed down to the sites, execution among sites was inconsistent.
While individual organizations may have been aware of general requirements, they were able to
manage individual fleets with insufficient focus on optimal vehicle inventory levels,
environmental concerns or other factors. Additionally, by retaining underutilized vehicles, the
Department may be paying unnecessary monthly leasing costs for vehicles that are rarely used.
This may also result in missed opportunities for fleet and petroleum reductions. Further,
alternative approaches, such as the use of other motorized equipment, may have some impact in
reducing the size of the Department's inventory reported in the Federal Automotive Statistical
Tool database; however, these approaches circumvent the intent of the regulations to reduce the
number of vehicles used by Federal agencies.

Furthermore, as a result of acquiring 854 AFVs, (522 at LANL and 332 at Bonneville) and
fueling them with gasoline, the Department spent at least $700,000 more than necessary.
Agencies are required to pay incremental costs associated with AFVs. The AFV incremental
cost is the actual cost of an AFV compared to the low bid for a conventional vehicle in a similar
vehicle class. The EPAct requires GSA to charge all customer agencies a surcharge to recover
AFV incremental costs. Consequently, the Department paid incremental costs totaling at least
$700,000 for flex-fuel vehicles at LANL and Bonneville; however, failed to obtain the
environmental benefits or further Departmental goals of increasing alternative fuel use and
reducing petroleum use.



Page 6                                                                         Details of Finding
Additionally, although there is no immediate penalty for violating the EPAct by using gasoline in
an AFV without obtaining a waiver, the waiver and fuel use data is submitted to and reviewed by
the U.S. Office of Management and Budget. Department officials acknowledged that violations
of the EPAct could have budgetary impacts in future years.

RECOMMENDATIONS

Agencies must act in a fiscally responsible manner, which includes minimizing costs in order to
perform mission-critical functions in the most efficient, cost-effective way. Department fleet
managers must consider both environmental benefits and financial costs when making decisions.
Thus it is important that Headquarters fleet management take an active role in managing the
entire fleet to ensure that the number and type of vehicles are appropriately allocated across
different sites in the most cost effective and environmentally beneficial manner. Accordingly, to
strengthen controls over fleet management to achieve sustainability, we recommend that the
Acting Under Secretary for Management and Performance, in conjunction with the Acting Under
Secretary for Nuclear Security, and the Acting Under Secretary for Science and Energy:

   1. Update Department fleet management policies and procedures, to include procedures to
      evaluate petroleum reduction strategies and tactics for each fleet location, based on an
      evaluation of site-specific characteristics, including availability of alternative fuel, fleet
      size and fleet vehicle composition.

   2. Conduct an agency level utilization survey, as required by GSA Bulletin FMR B-30, and
      direct sites to conduct a fleet utilization survey and determine optimal fleet inventory as
      part of a vehicle allocation methodology.

   3. Ensure that targets and procedures for achieving Department goals for petroleum
      reduction and optimal fleet inventory flow down to field sites, with consideration given to
      other motorized equipment inventory that may offset the need for motor vehicles and
      procedures to locate alternative fuel vehicles near appropriate infrastructure.

MANAGEMENT REACTION

The Office of Management and NNSA provided comments on the draft of this report. The
Office of Management generally agreed with our findings and recommendations. NNSA
initially disagreed, citing several concerns with the report; however, after follow-up discussions
with NNSA management to clarify our respective positions, NNSA generally agreed with the
report's findings and recommendations. Specifically, in its initial comments NNSA indicated
that LANL is an isolated site compared to other sites, with a much smaller population, and less
alternative fuel availability. NNSA stated that the use of gasoline in flex-fuel vehicles at LANL
provided cost avoidances because E-85 fuel cost is double that of gasoline in that area.
Additionally, NNSA asserted that flex-fuel vehicles using gasoline versus E-85 fuel produce
about the same grams of carbon dioxide emissions per mile and have little to no impact on
meeting environmental goals for carbon dioxide reductions. Furthermore, NNSA stated that
flex-fuel vehicles use gasoline more efficiently than traditional vehicles, obtaining higher miles
per gallons, thus contributing to petroleum reduction goals.

Page 7                                         Recommendations and Management Reaction
AUDITOR COMMENTS

We recognize the difficulties in fueling AFVs in remote areas with limited alternative fuel
availability. However, NNSA's assertion that LANL is an isolated site with limited alternative
fuel availability further supports our conclusion that the Department should make every effort to
locate AFVs in proximity to fueling stations with available alternative fuels. In the May 24,
2011 Presidential Memorandum, Federal Fleet Performance, the President required that agency
AFVs must be located in proximity to fueling stations with available alternative fuels, and be
operated on the alternative fuel for which the vehicle is designed. The President explicitly stated
that the Federal government "owe[s] a responsibility to American citizens to lead by example
and contribute to meeting our national goals of reducing oil imports by one-third by 2025" and
that "living up to that responsibility means… reducing petroleum consumption through
efficiency and alternative fuels." The Department's continued use of gasoline in flex-fuel
vehicles is contrary to the President's intentions of reducing petroleum consumption. Notably, in
our follow-up discussions with NNSA, officials stated that LANL had recently taken delivery of
two new Chevrolet Volts to determine the feasibility of using electric vehicles at the site.

Furthermore, NNSA's claim that E-85 fuel cost is double that of gasoline in that area is not
supported by fuel price data. For example, as of August 10, 2013, the price of E-85 fuel at the
Nambe Falls Travel Center, located 30 miles from LANL, was $2.56 per gallon, while the
regular gasoline price was $3.29. When taking into account the lower fuel efficiency of E-85
fuel versus the same volume of regular gasoline, we found that the net cost of E-85 fuel and
regular gasoline was about the same for the vehicles in LANL's fleet. When acquiring flex-fuel
vehicles at increased costs, the Department should ensure that it is receiving the intended
environmental benefit by locating vehicles near appropriate infrastructures and fueling them with
alternative fuel. It should be noted that after receiving NNSA's initial comments, we met with
the NNSA fleet manager to discuss our methodology and data sources supporting our findings in
this matter. The NNSA fleet manager indicated that NNSA used cost data taken from the
Federal Automotive Statistical Tool (FAST) for E-85 fuel and regular gasoline, whereas we used
fuel cost data obtained directly from a local fueling station in our cost comparison. The NNSA
fleet manager stated that the cost data in FAST was computer-generated based on information
input by local fleet managers and likely included costs of operating and maintaining an E-85 fuel
truck at LANL.

Also, NNSA's statements regarding the benefits of gasoline versus E-85 fuel are not consistent
with findings by the Department. The Department found that the use of high-level ethanol
blends, such as E-85, generally results in lower emission levels when compared to gasoline.
According to the Office of Energy Efficiency and Renewable Energy (EERE), using ethanol as a
vehicle fuel has measurable greenhouse gas emissions benefits compared with using gasoline.
The EERE Alternative Fuels Data Center found that carbon dioxide released when ethanol is
used in vehicles is offset by the carbon dioxide captured when crops used to make the ethanol are
grown. As a result, flex-fuel vehicles running on ethanol produce less net carbon dioxide than
conventional vehicles per mile traveled. A 2007 study by Argonne National Laboratory found
that when these entire fuel life cycles are considered, using corn-based ethanol instead of
gasoline reduces life cycle greenhouse gas emissions by 19 to 52 percent, depending on the

Page 8                                                                        Auditor Comments
source of energy used during ethanol production. The study also found the well-to-wheel
petroleum use reduction to be more than 70 percent. According to EERE, numerous studies have
compared the emissions of E-85 and gasoline and found that E-85 reduces emissions of carbon
dioxide, as well as the emissions of many other harmful toxins.

Additionally, NNSA's statement that flex-fuel vehicles have enhanced fuel economy over
conventional vehicles when using gasoline is not supported by fuel economy data from EERE
and the Environmental Protection Agency. When looking at the comparison of miles per gallon
(MPG) of gasoline for both a flex-fuel vehicle and the conventional version of the same vehicle,
we found that the fuel economy for the majority of flex-fuel vehicles in LANL's fleet when using
gasoline was the same or slightly worse than the fuel economy for a conventional vehicle
counterpart. We identified 63 vehicle models in the LANL fleet for which EERE had data for
both the flex-fuel and conventional versions of the same vehicle. We found that the MPGs for
the majority of the flex-fuel and conventional vehicles were the same. However, for instances
when the fuel economy differed between the conventional and flex-fuel vehicles, the differences
were minimal, generally 1 or 2 MPG.

We modified our report, as necessary, in response to management's comments. Based on data
and methodology clarifications provided during the follow-up discussions with the NNSA fleet
manager, NNSA agreed with the recommendations in the report. Management's comments are
included in Appendix 3.




Page 9                                                                     Auditor Comments
Appendix 1

                        OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of the audit was to determine whether the Department of Energy (Department) has
effectively and efficiently updated its fleet vehicles to implement sustainability initiatives at
selected locations.

SCOPE

This audit was conducted between August 2012 and September 2013, at Department
Headquarters in Washington, DC and Los Alamos National Laboratory (LANL) in Los Alamos,
New Mexico. We focused on the Department's efforts to update fleet vehicles to meet the intent
of Executive Order 13514, Federal Leadership in Environmental, Energy, and Economic
Performance, and Executive Order 13589, Promoting Efficient Spending, and other
requirements. We examined fleet data for 3,704 vehicles, or approximately 26 percent of the
Department's total fleet, from LANL, Bonneville Power Administration (Bonneville) and
Savannah River Site.

METHODOLOGY

To accomplish our audit objective, we:

    •   Judgmentally selected a sample of three Department vehicle fleets from a universe of 93
        vehicle fleets managed by the Department. This selection was based on vehicle
        inventory, fuel consumption data and fleet operating costs. Because a judgmental
        sample of Department fleets was used, results are limited to the sites or locations
        selected.

    •   Reviewed applicable laws and regulations pertaining to fleet vehicles.

    •   Reviewed prior audits pertaining to fleet vehicles.

    •   Reviewed Department sustainability and vehicle management plans.

    •   Interviewed fleet management personnel from Department and National Nuclear
        Security Administration Headquarters, LANL, Bonneville and Savannah River Site.

    •   Interviewed General Services Administration personnel, Federal Energy Management
        Program personnel and Sustainability Performance Office personnel.

    •   Obtained vehicle and equipment inventories and vehicle utilization records from LANL,
        Bonneville and Savannah River Site.




Page 10                                                       Objective, Scope and Methodology
Appendix 1 (continued)

    •   Obtained and reviewed Federal Energy Management Program performance data and
        General Services Administration alternative fuel vehicles guides.

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Accordingly, the audit included
tests of controls and compliance with laws and regulations necessary to satisfy the audit
objective. In particular, we assessed compliance with the GPRA Modernization Act of 2010
and found that the Department had established performance measures for fleet management.
Because our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. We did not rely on computer-
processed information to achieve our audit objective.

We held exit conferences with the Office of Management and the National Nuclear Security
Administration on September 26, 2013.




Page 11                                                   Objective, Scope and Methodology
Appendix 2

                                     PRIOR REPORTS

  •   Audit Report on the Special Review on Petroleum-Based Fuels Use (OAS-L-08-17,
      September 2008). This review found that the Department of Energy (Department) was
      aggressively pursuing a strategy to reduce its use of petroleum-based fuels and that it
      appeared to be on track to meet or exceed previously established goals in that area.
      However, the review identified two actions that, if promptly addressed, may help the
      Department further reduce fuel use and better prepare it to adjust to budget and mission
      impacts associated with volatile fuel prices. In particular, the review found that
      Headquarters program officials had stressed the importance of previously established
      goals, but had not taken specific action in response to recent fuel price increases to
      promote the Department-wide use of site-developed conservation techniques. The review
      also found that the Department had not developed an overall agency-level projection or
      attempted to forecast and formally address the impact of petroleum price increases on
      future operations.

  •   Audit Report on The Department's Utilization of Fleet Vehicles (DOE/IG-0728, May
      2006). This audit found that fleet managers at the sites they reviewed were not always
      adequately managing fleet vehicles. Based on a comparison of local use standards, the
      audit determined that many of the fleet vehicles maintained by 18 separate organizations
      were underused. Specifically, on average, about 28 percent of the over 1,700 vehicles in
      the audit sample did not meet local use standards for Fiscal Years 2004 and 2005.
      Additionally, the audit identified standards and recordkeeping issues. The audit found
      that fleet managers seldom took action to reassign, dispose of, or seek Federal approval to
      retain underutilized vehicles. The audit also noted that fleet utilization rates may have
      declined at certain contractors because they were permitted to acquire and use small
      motorized carts, trucks and vans not licensed for use on public roads to perform cargo
      and passenger carrying tasks without making a corresponding reduction in fleet vehicles.
      Finally, the audit observed that Federal fleet managers did not require detailed vehicle
      utilization reports to be submitted, which could have allowed them to identify and correct
      underutilization.




Page 12                                                                           Prior Reports
Appendix 3




Page 13      Management Comments
Appendix 3 (continued)




Page 14                  Management Comments
Appendix 3 (continued)




Page 15                  Management Comments
Appendix 3 (continued)




Page 16                  Management Comments
Appendix 3 (continued)




Page 17                  Management Comments
Appendix 3 (continued)




Page 18                  Management Comments
Appendix 3 (continued)




Page 19                  Management Comments
                                                                    IG Report No. DOE/IG –0896


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.

Name                                          Date


Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations


If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
